<html>
<title> - THE REAUTHORIZATION OF THE OFFICE OF GOVERNMENT ETHICS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
         THE REAUTHORIZATION OF THE OFFICE OF GOVERNMENT ETHICS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON THE FEDERAL WORKFORCE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2006

                               __________

                           Serial No. 109-211

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
32-968                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on the Federal Workforce and Agency Organization

                    JON C. PORTER, Nevada, Chairman
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
DARRELL E. ISSA, California          ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
PATRICK T. McHENRY, North Carolina   ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   CHRIS VAN HOLLEN, Maryland

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Ron Martinson, Staff Director
                Shannon Meade, Professional Staff Member
                   Alex Cooper, Legislative Assistant
          Mark Stephenson, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 23, 2006.....................................     1
Statement of:
    Glynn, Marilyn, Acting Director, Office of Government Ethics.     6
Letters, statements, etc., submitted for the record by:
    Glynn, Marilyn, Acting Director, Office of Government Ethics, 
      prepared statement of......................................    10
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................     3
    Schmidt, Hon. Jean, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................    33


         THE REAUTHORIZATION OF THE OFFICE OF GOVERNMENT ETHICS

                              ----------                              


                         TUESDAY, MAY 23, 2006

                  House of Representatives,
      Subcommittee on Federal Workforce and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. Jon C. Porter 
(chairman of the subcommittee) presiding.
    Present: Representatives Porter, Schmidt, Davis of 
Illinois, Norton, and Van Hollen.
    Staff present: Ronald Martinson, staff director; Chad 
Bungard, deputy staff director/chief counsel; Shannon Meade, 
professional staff member; Patrick Jennings, OPM detailee/
senior counsel; Chad Christofferson and Alex Cooper, 
legislative assistants; Mark Stephenson and Tania Shand, 
minority professional staff members; and Teresa Coufal, 
minority assistant clerk.
    Mr. Porter. I would like to bring the meeting to order, I 
appreciate you all being here today. This is a hearing 
entitled, ``Reauthorization of the Office of Government 
Ethics.'' A quorum being present, I would like to begin the 
meeting.
    Ethics in government has been an issue of considerable 
prominence not only in Washington but across this country and 
in the media recently. I believe that Congress must take every 
step possible to protect and sustain public confidence that 
Federal officials are honest and trustworthy. Today's hearing 
affords us such an opportunity by allowing this subcommittee to 
examine the role of the Office of Government Ethics [OGE], and 
to consider extending its authorization for appropriations 
which expires at the end of this fiscal year.
    Undoubtedly, OGE performs critically essential ethics 
functions throughout the executive branch, such as reviewing 
disclosure statements to resolve potential conflicts of 
interest for nominees and appointees to the Senate confirmed 
positions, conducting oversight and evaluations of ethics 
programs throughout the executive branch, issuing ethics 
regulations and guidance pertaining to the executive branch 
employees, providing ethics counseling to agency officials, 
developing ethics training programs, and providing ethics 
training for Presidential appointees and other employees 
throughout the executive branch.
    The ultimate question to be asked is whether these 
important functions should be handled by OGE as an independent 
agency or as a separate office within an existing agency or 
department.
    Within the next couple of weeks, I will be introducing the 
Ethics in Government Reauthorization Act. This bill will extend 
the authorization of appropriations for the Office of 
Government Ethics, through fiscal year 2009, will require the 
Comptroller General of the United States to study by the end of 
fiscal year 2008 the functions of OGE and the need for the 
permanent authorization of OGE as a stand-alone agency or the 
transfer of the office's functions to another agency or 
department.
    This GAO study will greatly assist the subcommittee in 
reaching the right determination on OGE's permanent 
reauthorization. OGE's functions are critical and it is vital 
that when a permanent decision is made it is made with a 
complete understanding of the functions and the role of OGE so 
that the public has the highest confidence that the 
government's business is conducted with impartiality and 
integrity.
    OGE is a small agency within the executive branch. It was 
created by the Ethics in Government Act in 1978, originally 
part of the Office of Personnel Management [OPM]. OGE became a 
separate agency in 1989 as a part of the Office of Government 
Ethics Reauthorization Act of 1988. The rationale supporting 
OGE's independence was to not only promote its visibility and 
heighten awareness of ethics but to also promote administrative 
efficiency.
    A recent proposal submitted by the Republican Study 
Committee [RSC], in its fiscal year 2007 budget recommends the 
elimination of all budget authority for OGE. According to the 
RSC, the job now performed by OGE can be performed by the 
Department of Justice and does not need a separate agency.
    By eliminating OGE, the estimated savings in 2007 would be 
$11 million. In terms of cost savings another option is to 
transfer OGE's functions back to OPM. OGE, however, has 
indicated to the subcommittee staff that having its functions 
embedded within a large department or even OPM would be adverse 
to effective performance of its duties because of the added 
layer of bureaucracy. Additionally, OGE pointed out to the 
staff that having it as a stand-alone agency highlights the 
importance of its functions and gives needed visibility to an 
ethics program in the executive branch.
    The American people expect government to be open, 
transparent and accountable. As such, it should be the practice 
of Federal Government to maintain a high standard of ethics in 
order to build and maintain the public's trust. The Office of 
Government Ethics has been an important executive branch agency 
that helps ensure accountability and openness.
    With that, I would like to thank Ms. Glynn, the Acting 
Director for being here, and I look forward to the discussion.
    I would like to now recognize my colleague and friend 
ranking minority member of the subcommittee, Mr. Danny Davis. 
Mr. Davis.
    [The prepared statement of Hon. Jon C. Porter follows:]

    [GRAPHIC] [TIFF OMITTED] T2968.001
    
    [GRAPHIC] [TIFF OMITTED] T2968.002
    
    Mr. Davis of Illinois. Thank you, Mr. Chairman, and let me 
thank you for calling this hearing. And I guess there couldn't 
be a better time in which to talk about and discuss ethics in 
all facets of government. It has been 2 years since the 
subcommittee has held an oversight hearing on the Office of 
Government Ethics, and it is prudent that we establish a record 
of how the agency is operating.
    OGE's mission is not only to prevent and to resolve 
conflicts of interest and to foster high ethical standards for 
Federal employees, it is also to strengthen the public's 
confidence that the government's business is conducted with 
impartiality and integrity.
    OGE does this in the following ways: By reviewing and 
certifying the financial disclosure forms filed by Presidential 
nominees who require Senate confirmation; by serving as the 
primary source of advice and counseling on conduct and 
financial disclosure issues; and by providing information on 
and promoting understanding of ethical standards in executive 
agencies.
    OGE plays a critical role in preventing conflicts of 
interest on the part of officials and employees of the 
executive branch. Given the ethical lapse by Federal officials 
that have been reported in the media, we need OGE now more than 
ever.
    I look forward to hearing from Ms. Glynn regarding OGE's 
reauthorization, the work that it has been doing, and the work 
that it needs to continue to do.
    So again, Mr. Chairman, I thank you for calling this 
hearing and I look forward to hearing from our witness, and I 
yield back.
    Mr. Porter. Thank you, Mr. Davis, and I appreciate your 
comments and we concur someone now more than ever needs to be 
in this oversight position and we do appreciate your comments.
    Also to my immediate left is my colleague, Jean Schmidt. Do 
you have opening comments?
    Ms. Schmidt. Thank you, Mr. Chairman, and thank you for 
holding this hearing on the reauthorization of the Office of 
Government Ethics.
    It is imperative that we carefully consider the issues 
related to this reauthorization, and I am looking forward to 
hearing from Mrs. Glynn, the Acting Director of OGE.
    OGE was established in 1978 by the Ethics in Government Act 
to provide leadership and guidance to the executive branch on 
ethics matters.
    OGE educates executive branch employees on ethics matters, 
issues regulations and opinions, provides oversight, attempts 
to prevents ethics conflicts and resolves conflicts that do 
occur.
    Fostering the highest ethical standards is of the utmost 
importance in our democratic system of government. We must do 
all that we can to ensure that our citizens have confidence in 
our government and our leaders. OGE's leadership is an 
important part of that process.
    H.R. 4071, legislation introduced by my colleague from 
Cincinnati, Representative Steve Chabot, would extend the 
authorization of the Office of Government Ethics through fiscal 
year 2011. It appears that this is indeed a prudent use of our 
taxpayer dollars.
    Again, thank you, Mr. Chairman, for holding this hearing 
and I look forward to Mrs. Glynn's testimony.
    Mr. Porter. Thank you very much. I would like to note for 
the record I have mentioned looking at the Office of Government 
Ethics with a study through the fiscal year 2008. I would like 
to correct that to 2007; 2008 was a mistype.
    At this time I would like to do some procedural matters and 
ask unanimous consent that all Members have 5 legislative days 
to submit written statements and questions for the hearing 
record, and any answers to written records provided by the 
witnesses also be included in the record. Without objection, so 
ordered.
    I ask unanimous consent that all exhibits, documents and 
materials referred to by Members and the witnesses may be 
included in the hearing record, that all Members be permitted 
to revise and extend their remarks. Without objection, so 
ordered.
    It is also the practice of the subcommittee to administer 
the oath to all witnesses, so today if you would please stand, 
raise your right hand.
    Thank you.
    [Witness sworn.]
    Mr. Porter. Let the record reflect that the witness has 
answered in the affirmative. Please be seated.
    Note that as far as testimony today we originally said 
approximately 5 minutes, but you may take a little longer if 
you would like. We appreciate you being here today and, again 
as it was mentioned in our opening comments, it is very 
critical now more than ever in the ethics of government and 
government employees. So we appreciate what you have done in 
the past and we look forward to working with you in the future.
    And today we are going to hear from our Director, Marilyn 
Glynn, the Acting Director of the Office of Government Ethics. 
Again, thank you for being here.

    STATEMENT OF MARILYN GLYNN, ACTING DIRECTOR, OFFICE OF 
                       GOVERNMENT ETHICS

    Ms. Glynn. I definitely appreciate the opportunity for 
speaking today. Chairman Porter, Ranking Member Davis and 
Representative Schmidt, I appreciate the opportunity of 
speaking today. I appreciate your statements and honestly, I 
can't say that I disagree with any of them. There might be a 
few things here and there, but the sentiments I think are 
shared by people throughout the executive branch.
    I am the Acting Director of OGE, but I am also the General 
Counsel. I have worked there for quite a large number of years 
so I have a little bit of a memory, institutional memory of the 
office.
    As you mentioned, our current authorization ends at the end 
of this fiscal year. We are seeking a 5-year reauthorization 
along the approach of H.R. 4701 that Representative Schmidt 
referenced, and in a minute I'll tell you why that timing is 
important to us.
    I have prepared a written statement that sets out in detail 
the history of the office, and so on, so I would like to try to 
keep my comments as brief as possible today and try to stay 
within the 5 minutes.
    We are a small agency, but we have a unique and crucial 
mission. Our organic act states it succinctly that we are 
created with the intention of providing the overall direction 
for the prevention of conflicts of interest in the executive 
branch.
    We were created as part of the Ethics in Government Act of 
1978, along with the IG cadre, and you know the reform efforts 
that took place at that time. And Congress stated at the time 
that they were looking for a central expert ethics unit in the 
executive branch to provide consistency, credibility, and 
oversight for preventing conflicts of interest.
    As you noted, we were originally part of OPM. In 1988, 
however, Congress felt that being buried in a bigger 
organization of that type was not as efficient as it should 
have been and they made the decision to make us a separate 
agency. We have since been reauthorized four times, most 
recently in 2002.
    We continue to perform the important prevention functions 
for which we were created. Other agencies, like the Department 
of Justice and components of agencies such as the Inspectors 
General, focus on enforcement of ethics rules and laws. Only 
OGE has as its central function the prevention of conflicts of 
interest and the promotion of high ethical standards.
    And our ethics program, as you also eloquently noted, is 
more than simply just another government activity. It is an 
essential element in the fabric of our government. Few would 
argue with the notion that the success of a democracy depends 
on public confidence in the integrity of government operations, 
and that is why OGE was created, to set in place policies and 
programs to enhance our citizens' understanding that government 
is working for them and not for special interests.
    Now, let me just mention a few of our most important 
functions and a couple of examples of some what I would call 
recent accomplishments.
    First, we play an integral role in the Presidential 
appointments process. I don't want to underestimate this 
because we spend a lot of time on this function. We review the 
financial statements of all Presidential appointees requiring 
Senate confirmation and at both ends of Pennsylvania Avenue 
people rely on us quite heavily to determine whether incoming 
appointees are going to be free from conflicts of interest.
    We draft what we call ethics agreements. These are actual 
written documents that incoming appointees must promise to 
adhere to during their time in government, and we track their 
compliance with those promises. So in a Presidential transition 
year, as you can imagine, this is a major activity. But even in 
a nontransition year this is a key function and we do spend a 
lot of time on this activity.
    For example in 2005, we reviewed and certified 1,500 forms 
submitted by Presidential appointees. That includes nominees 
and folks who are filing forms on an annual basis and 
termination forms.
    Another important aspect of our prevention program involves 
the oversight of executive agencies. We conduct periodic audits 
of the ethics programs at agencies to make sure they are 
working well. For example, a recent audit of NIH resulted in 
the issuance of new, stricter standards for NIH scientists who 
were engaged in consulting activities.
    A central OGE function is developing ethics policies. This 
is done primarily through regulations on a wide range of 
subjects that includes standards of conduct, financial 
disclosure, financial conflicts of interest, post employment, 
and ethics training.
    Just this month, for example, we issued two rules, a final 
rule streamlining and improving the confidential financial 
disclosure system and then another rule, a proposed rule, 
describing the standards of conduct that would apply to folks 
who are coming into the government from the private sector 
under the Intergovernmental Personnel Act as detailees.
    In recent years--well, I should go back and say we also 
provide a large body of written guidance, and we do that 
through opinions to individuals who have questions. But we also 
sort of proactively write memos and things of that type to 
agency ethics officials to help them understand how to 
interpret the ethics rules.
    In recent years we have published a pretty big compendium 
on post-employment rules, for example, and we also published a 
book length document called a reviewer's reference. This 
provides detailed guidance to agencies who are reviewing 
financial disclosure forms. This kind of high quality written 
guidance helps ensure consistency across the agencies on how 
they interpret and enforce ethics rules.
    We maintain an active outreach program to agency ethics 
officials, including a desk officer system that assigns 
designated OGE employees to provide prompt assistance to 
specific agencies.
    Training is an important part of our prevention efforts. 
Our regulations require that agencies provide ethics training 
to their employees. But to promote high quality training, we 
develop aids ourself, such as Videos and training programs that 
agencies can use.
    We also conduct our own training, both for ethics officials 
and sometimes for employees. This year, for example, we expect 
to train approximately 2,300 ethics officials over the course 
of about 70 sessions on various topics.
    In addition to these additional programmatic functions, we 
are uniquely positioned to focus on emerging ethics issues. For 
example, we recently issued reports on the effectiveness of the 
criminal conflict of interest laws and on the financial 
disclosure law, including recommendations for improvement, and 
to draw attention to new ethics issues that may emerge from the 
government's increasing use of contract personal OGE testified 
before the Services Acquisition Advisory Panel and participated 
in a working group of the National Academy of Public 
Administration.
    Another emerging issue involves the ethics issues that 
arise during a response to emergencies. So earlier this year we 
organized a conference of ethics officials to develop best 
practices and how they address the ethics issues that come up 
during an event such as a Hurricane Katrina.
    Finally, I want to note that OGE works hard to maintain an 
effective relationship with the enforcement community, 
including agency Inspectors General and the Department of 
Justice.
    As an example, we advise IGs on the ethics laws and rules 
and how they might apply in specific investigations. We 
maintain a close liaison with the Public Integrity Section of 
the Criminal Division at DOJ and the Office of Legal Counsel. 
This helps ensure consistent guidance on the application of the 
conflict of interest laws.
    Now I think what I have just described gives you a good 
idea of who we are at OGE and what we do. I urge you to 
consider the importance of our mission, which I think I have 
already demonstrated that we do, and the significant activities 
we carry out with a relatively small budget.
    As the old adage goes, an ounce of prevention is worth a 
pound of cure, and OGE has been very successful, I think, in 
delivering that ounce of prevention.
    Now I would be happy to answer any questions you might 
have.
    [The prepared statement of Ms. Glynn follows:]

    [GRAPHIC] [TIFF OMITTED] T2968.005
    
    [GRAPHIC] [TIFF OMITTED] T2968.006
    
    [GRAPHIC] [TIFF OMITTED] T2968.007
    
    [GRAPHIC] [TIFF OMITTED] T2968.008
    
    [GRAPHIC] [TIFF OMITTED] T2968.009
    
    [GRAPHIC] [TIFF OMITTED] T2968.010
    
    [GRAPHIC] [TIFF OMITTED] T2968.011
    
    [GRAPHIC] [TIFF OMITTED] T2968.012
    
    Mr. Porter. Thank you for your testimony. Before we go on 
to the questions section, I would like to know, Mr. Van Hollen, 
any opening statement you would like to make at this time?
    Mr. Van Hollen. Thank you, Mr. Chairman, I want to get to 
the questions as soon as possible. Just to underline my support 
for your work at OGE and instead of even considering any 
weakening of OGE and the resources we provide to OGE, I think 
the current climate and recent events throughout Washington are 
testimony to the fact that we need to make sure we strengthen 
our ethics laws and our ethics oversight. And I have a number 
of questions at the appropriate time.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you.
    I guess just a couple of things before we get into the 
questions, more of a comment. I think we need to strengthen our 
ethics rules and regulations and enforcement. I understand you 
are not in the enforcement end, but could you maybe walk us 
through the process? Let's say I am an applicant or I am going 
to have to go before an appointment hearing in the Senate or 
considering an appointment. Can you walk us through how that 
process works?
    Ms. Glynn. Sure. If you are talking about senior officials, 
Presidential appointees, obviously they are selected by the 
White House. The first thing after they fill out those mounds 
of paper that everyone complains about they come to our office, 
not physically but via their financial disclosure statement.
    That statement is really important because what it does, it 
gives us the opportunity to kind of set the stage to get them 
off on the right foot in government. We go through these 
statements literally with a fine tooth comb, line by line, and 
we communicate either with the appointee or the nominee 
directly or their attorney or an accountant or the agency where 
this person would go, and we highlight all the things that 
create problems, conflicts of interest or impartiality 
concerns.
    We are not that popular, frankly, with this group because 
we require a lot of divestitures, a lot of recusal, and 
resignations from positions. So people tend to have to turn 
their lives upside down when they come into the executive 
branch in government, and we are the body that is in place to 
make sure that it happens.
    As I say, they, all this is sort of consolidated into a 
written document called the ethics agreement, which they sign 
or the agency signs in a letter to our office, and then we 
transmit that entire package to the Senate committee that is 
considering the nomination and they take that into account in 
deciding whether to confirm the person.
    Once they are in the position, they have 90 days to comply 
with all these promises they made in this ethics agreement, and 
we track each person carefully. They need to get actual written 
extensions of time if they have some reason why they can't 
comply, but the overwhelming majority comply promptly if not 
sooner than the 90 days.
    Then after they are in their position I would say a lot of 
the responsibility for this nominee shifts over to the agency 
ethics official, who is the person designated for spearheading 
that ethics effort at that agency. And that person presumably 
works with the appointee on a frequent basis to advise them.
    They only come back to our office after that, once again as 
a form, because they file financial disclosure forms every 
year. And then when they leave government we do carefully once 
again review those forms and we are required to certify them. 
If we are not satisfied we don't certify them. And once again 
we make people take steps to make changes if there are 
problems.
    So that is kind of the life cycle of a nominee. They are 
also required to have annual ethics training, but their agency 
does that training for them. We see our job more as training 
the trainers. In other words, I think I mentioned in my oral 
statement that we are training 2,300 ethics officials this year 
at 70 sessions. So our job is to make sure that this army of 
ethics officials understands the advice that they need to be 
giving to their appointees.
    Now for an average employee, a person that is not a 
Presidential appointee, the majority of those do not file 
financial disclosure forms although, honestly, 260,000 Federal, 
mid-level Federal employees file financial forms that are 
confidential. They are not made available to the public. And 
those folks get an initial ethics orientation when they come 
into government, and then they are on the receiving end of 
ethics training. But I would say that they probably don't get 
the same hands-on attention that the top level people would get 
for obvious reasons. I think that the top level people who are 
more in the public's eye are those that are most likely to be 
scrutinized carefully by the media and others. So those are the 
ones we are most concerned that don't take any missteps.
    Mr. Porter. Are there any things that you would suggest 
that would give more teeth to the process, to give you more 
authority? And by the way, I don't hear complaints and I 
appreciate the job that you do, and you should be commended.
    But are there some things that you would suggest as we look 
to the future that would improve your ability to be a larger 
part of this process?
    Ms. Glynn. I honestly believe that the process is working 
pretty well right now. I don't believe that there are many 
unresolved conflicts of interest or instances of unethical 
conduct in the executive branch that go unpunished.
    We do have currently so-called corrective action authority 
that allows us to actually hold a hearing if an agency or an 
individual at an agency refuses to comply on an ongoing basis 
with some direction in effect that we have given them, and we 
have never had to use it. I think we have a little bit of the 
power of the bully pulpit. We can call very high level folks at 
the agency, all the way up to a Secretary's office or an 
Administrator's office, and say, so and so on your staff is 
doing thus and such and it needs to stop. And it stops 
immediately. We do not find pushback from agencies. So I am not 
sure that there is a need to particularly strengthen our role.
    Since every agency has an Inspector General, there is a 
body in place already to investigate allegations of actual 
misconduct, and I am not sure that having us duplicate that 
function would really make sense. So we are----
    Mr. Porter. If you find something then you turn it over to 
the IG. Then the next time if you find a problem----
    Ms. Glynn. Yes.
    Mr. Porter [continuing]. That is not correctable, I assume?
    Ms. Glynn. Yes, that is true. Well, let me put it this way. 
If it is something that rises to the level of potential 
criminal violation we would refer it to the Department of 
Justice, to the Public Integrity Section of the Criminal 
Division.
    If it is not something of that type, if it is more in the 
sort of fuzzy, gray ethical area, we would then talk to the 
Inspector General. And if it is a really fuzzy area we just go 
directly to the agency ethics official. I would say, for 
example, in any given week I make about three phone calls to 
agencies based on articles I read in the paper about certain 
things that may have happened. And of course as we all know, 
the papers are not necessarily always right on target.
    But it is a common practice for us to call agencies and 
say, can you look into this and report back to us? And they 
always do. I can't think of a case where they haven't responded 
appropriately.
    Mr. Porter. Maybe you can check into some of the papers, 
too, at the same time to make sure that they are saying 
everything properly. I am saying that in jest.
    Ms. Glynn. I know you are, but just as an aside I can't 
tell you how many times we have written to the Washington Post 
asking them to correct certain things that they have written 
and they never do.
    Mr. Porter. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Ms. Glynn, do you know how many Presidential appointees 
require financial confirmation?
    Ms. Glynn. 1,100. 1,100, thereabouts. That is a rough----
    Mr. Davis of Illinois. Roughly 1,100 of those.
    The chairman mentioned in his opening statement some 
question relative to the possibility--or some people believe or 
think that it might make sense to rejoin the function with 
another agency. Of course there are others who think that its 
independent status is absolutely essential.
    Do you have a position?
    Ms. Glynn. Yes, I do. I don't favor folding us into another 
agency for some of the reasons that we spelled out in our 
written testimony.
    Honestly, I think history shows that being buried in a 
bigger organization really diminishes the importance of the 
function and it sort of suggests that it is just another 
government program.
    I also think that I would be a little concerned about 
hampering with the independence of the Director of the office. 
I think our agency, while small but mighty, has a good 
reputation for independence. In the time that I have been 
there, which is about 15 years, I don't recall us ever being 
accused of acting on the basis of partisan, any kind of 
political partisanship, and I think that is a very, very 
important quality that needs to be recognized.
    Honestly, I think if this agency ever were to become 
politicized then I would have to agree, I think it should be 
abolished because I think it wouldn't be performing a useful 
function.
    But having it independent--although it is not truly 
independent of course, the Director reports to the President--
but having it independent of another agency I think ensures 
somewhat that we wouldn't fall into any kind of partisan 
political squabbles and, in particular, I think if we were to 
be merged into an enforcement oriented agency such as the 
Department of Justice, I would be very concerned that the kind 
of preventive activities that we consider important would be 
sort of lost in that sexier and more glamorous activity of 
prosecution. I would think it would be a mistake to do that.
    Mr. Davis of Illinois. There are always those who attempt 
to make cases on the basis of cost efficiency and 
effectiveness. Do you think that the preventive nature of the 
agency is such that it really diminishes the notion? Because it 
seems to me that if you prevent something from happening, then 
you don't have to go through all of the other processes of what 
to do about it, and it would actually be more cost effective in 
the long run to keep the agency independent than to be able to 
make the case that if it was some place else you might save a 
bit of money.
    Ms. Glynn. I wish I could prove that with statistics, but I 
do believe that, as I said, an ounce of prevention is worth a 
pound of cure. I would think that a single criminal prosecution 
would be vastly more expensive than some kind of a training 
effort directed at thousands of employees, and hopefully we 
could keep the vast majority of those thousands of employees 
out of trouble through a training effort.
    As far as the cost effectiveness of rolling us into another 
agency, I have to question whether $11 million truly would be 
saved. Our budget for fiscal year 2007 is $11.4 I think, and 
unless we were to truly abolish all the functions all that 
money couldn't be saved. I guess I would have to concede, and I 
certainly don't want to quibble, that we would probably be able 
to save on some administrative costs because we wouldn't need 
to have our own IT people, let's say, or our own administrative 
officer. But I am not sure that if we wanted to continue these 
preventive activities whether we would really truly save that 
much.
    Mr. Davis of Illinois. Can you think of one instance, 
without divulging any information, where you could pretty 
concretely suggest that a preventive action had occurred that 
probably saved the government some money?
    Ms. Glynn. Honestly, I could probably name hundreds of 
them. Particularly when a top level official gets in trouble 
for some kind of misconduct, we all know what happens in 
Washington. The media descends like herpes essentially on this 
person, and the agency's Public Affairs Program and Office of 
General Counsel spends essentially all their time in trying to 
explain why this happened, and so on. Really very good people 
who come into government with good motivation and a lot of 
talent sometimes get sidetracked by some small ethical misstep, 
and then the attention of the entire agency is devoted to 
explaining why this misstep wasn't as bad as it really seems.
    As far as a concrete example is concerned, I can think of a 
case--we see a lot of the issues come up on financial 
disclosure forms, of course, because people have outside 
activities and outside associations that need to be dealt with 
and addressed.
    I can think of a situation where a person was--once again 
this was a Presidential appointee--was very reluctant to sell 
certain stock and to get out of a certain company and divest 
interest in that company, and we insisted that this person do 
that. And that company turned out to be Enron, and that person 
turned out to be in a position that had some governmental 
involvement with Enron. So I think that is a concrete example.
    Mr. Davis of Illinois. Thank you very much and thank you, 
Mr. Chairman, for your indulgence. I know I went a bit over but 
I appreciate it.
    Ms. Schmidt. Yes, thank you. First off, reaction to the 
$11.4 million in your budget. Even if you were to be placed 
into another department or agency, you would still have to have 
an operating budget to process all of the volumes of activity, 
so the savings would not be in moving it over just in one or 
two positions, am I correct?
    Ms. Glynn. Oh, absolutely. As I say, if we want to really 
continue these functions focused on prevention, really, I think 
all we would lose is our administrative staff, which is--there 
would be a savings there but I think we would be talking more 
in the realm of----
    Ms. Schmidt. Pennies compared to when you are talking $11 
million, your savings would be far less?
    Ms. Glynn. Yes, I agree.
    Ms. Schmidt. I guess what I would like to hear, what have 
been the major accomplishments of OGE since its independence 
from OPM?
    Ms. Glynn. Once it was made independent from OPM, the then 
President Bush signed an Executive order which more or less 
vastly increased our responsibilities. He charged us with 
drafting a comprehensive code of conduct for the entire 
executive branch which there had never really been anything of 
that type before. That was a very big project and we did that 
in a timely way, and it has been, I think, a good exercise.
    He also charged us in an Executive order with drafting 
regulations interpreting criminal conflict of interest laws, 
post-employment laws, and we have done all that. Those are all 
major accomplishments of the office.
    It has been really a very useful exercise because finally 
the various agencies are all kind of on the same page to the 
extent possible in interpreting these laws.
    What I think is another big accomplishment is that we 
established this agency audit function. This means we go into 
agencies, we do right now, with our current staffing, about 35 
a year, and we actually examine how well their ethics programs 
are operating. As I mentioned in my oral testimony, a good 
example of that is the NIH and involving the problems of NIH a 
couple of years ago. There was a certain preventive effect in 
having those audits because when the agency knows we are coming 
in then they all rush around and that is when they start 
putting resources toward the programs.
    So it is actually quite a useful thing. I think we have 
done a very good job with those agency audits. I think we have 
done a decent job with our training program as well.
    But we are now moving into a new era, and I wanted to 
emphasize something that I mentioned in my oral testimony and I 
think is in my statement, too, and that is that we are seeing, 
as we all know, an increasing use of contractors as more or 
less substitutes for government employees, and I think this is 
really the big issue that we need to address next. I think 
there is going to be concern raised that contractor personnel 
who function more or less as employees sitting in government 
agency buildings side by side with real--when I say real 
government employees, you know what I mean--and yet they are 
not held to the same level of accountability as employees are. 
And I think we need to get on top of this question. And I am 
not suggesting that I know the answer, and I am not suggesting 
that I think they need to be subject to the whole panoply of 
rules that regular employees are subject to, but I think we 
ought to start addressing the question and deciding for 
purposes of ensuring confidence in government that our 
contractor employees are also held to high ethical standards.
    So that is our next--on my watch anyway--our next big 
project.
    Ms. Schmidt. Thank you. And one final question, how would 
you describe the current state of ethics in the executive 
branch, and what is your basis for this assessment?
    Ms. Glynn. I think it is pretty good. We do a survey of 
agencies every year and ask them how many disciplinary actions 
they take against employees for violation of ethics rules. Now 
I wish I could swear to the accuracy of this, but this is 
information reported by the agencies, so you know I can't. But 
what we found is that consistently the overwhelming majority of 
violations occur with misuse of property and time. You know the 
kind that, I don't want to say penny ante things but the 
smaller things, sort of taking a piece of paper home, small 
things, wasting time on government time. As far as significant 
violations of things like criminal laws and having conflicting 
financial interests, those kinds of violations reported to us 
are barely in the hundreds every year. And we do a prosecution 
survey every year. We go to the Department of Justice and all 
the individual U.S. Attorney's offices and ask them to report 
to us the prosecutions that they have each year. And I would 
say it is usually in the 15 to 25 range. So considering there 
are almost 3 million executive branch employees, I think we are 
doing pretty well.
    Ms. Schmidt. Thank you.
    Mr. Porter. When working with the GAO study I would like to 
include the contract portion and your recommendation.
    Ms. Glynn. I would welcome that.
    Mr. Porter. I think it is critical that they be held to as 
high a standard, if not higher in some cases, but I certainly 
would appreciate as we work together on that to include that in 
the GAO report.
    Ms. Glynn. Thank you. I appreciate that. I think that would 
be very helpful because there is a lack of data right now on 
exactly how many contractors there are and what they are doing 
and if GAO could assist us in gathering data of that type I 
think that would be extremely useful.
    Mr. Porter. Thank you. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank you, Ms. 
Glynn, for your testimony. I agree with respect to the 
contractors because you said you have Federal employees sitting 
right next to Federal contractors doing in many cases similar 
work, and it makes no sense to have different sets of ethics 
rules applying to them both. They should both be held to the 
high standard. So I would encourage all of us to work together 
toward that end.
    The full committee, the full Government Reform Committee, 
back in February had a hearing on various ethics issues in the 
government and the result of that was actually a piece of 
legislation that was introduced by the chairman of the full 
committee, Tom Davis. Mr. Waxman and I was the cosponsor which 
later I believe unanimously passed the full committee, and part 
of that gave additional responsibility actually to the OGE. 
Have you had a chance to look at that bill?
    Ms. Glynn. I have, I am familiar with it. I have some 
concerns about that bill. As far as the additional 
responsibilities for OGE, I think it is evident that we 
couldn't do it with our current staffing and budget, so we 
would be begging for more money. That goes without saying. But 
beyond that aspect of it, which I know seems a little 
parochial, I have concerns with two major things or maybe 
three.
    One is there is some overlap in that bill with existing 
provisions in criminal law, and I think there is a potential 
for some confusion among employees, were the bill to be passed, 
about which law applies in which situation.
    The second thing I am somewhat concerned about is the fact 
that it would call for current employees to keep a record of 
all contacts made to them by folks outside the government and I 
honestly----
    Mr. Van Hollen. By employees covered by the bill I believe 
not every, but certain, depending on their level of 
responsibility.
    Ms. Glynn. Of responsibility, that is right. But I think 
some thought needs to be given to how practical that really 
would be and whether changes, exceptions need to be made for 
common sense situations.
    I understand that it is addressed at lobbying type 
communications made to government officials. But as drafted, it 
is considerably broader than that.
    And finally, this is my own major concern with the bill, 
and that is the cooling, I guess what I would call a reverse 
cooling off period that would require folks who come from 
certain industries for, I think it is 2 years, from 
participating in government matters, affecting or involving 
that industry.
    I think that would be very difficult. I think we would have 
trouble getting the experts that we need in certain agencies, 
scientists and securities experts and things of that type.
    So honestly I think it needs a little massaging.
    Mr. Van Hollen. I appreciate the comments and maybe it 
would be helpful for all of us if you could put some of these 
suggestions in writing if you have the opportunity to do that.
    Ms. Glynn. Yes. If I can get clearance from the Office of 
Management and Budget, I will.
    Mr. Van Hollen. You don't have any objection to the other 
cooling off period; in other words, if you are a Federal 
employee and you are doing business with somebody and part of 
your responsibilities involved overseeing someone in the 
private sector, that you would have a 2-year cooling off period 
before you left government service and----
    Ms. Glynn. We issued----
    Mr. Van Hollen [continuing]. Started lobbying the same 
government agency that you were----
    Ms. Glynn. Right. It is the extension of. There is a 
current 1-year cooling off period. This would extend to 2 
years. We have a report on the criminal conflict of interest 
laws that we just issued January of this year in which we do 
not endorse that provision. We think that the current 
restrictions are sufficient, but I can't say that it 
particularly troubles me if that bill were to pass.
    Mr. Van Hollen. And who is it that made that 
recommendation?
    Ms. Glynn. Our office.
    Mr. Van Hollen. Against the 2 years. OK, let me ask you 
with respect to waiver authority, because as I understand the 
situation now, if you wanted to get a waiver from, for example, 
the 1-year cooling off period, you don't come through your 
office, you go through the office--or the provisions that 
prevents you from negotiating, outside employment----
    Ms. Glynn. It is that. It is that. It is that.
    Mr. Van Holland. Outside employment at the same time you 
are in a job. Those are important provisions, wouldn't you 
agree?
    Ms. Glynn. Yes.
    Mr. Van Hollen. But the waiver right now as I understand it 
your office has no oversight--you provide guidance but you 
don't provide direct, you don't have the sign-off?
    Ms. Glynn. We don't have the sign-off authority. By 
Executive order agencies are supposed to consult with us as 
practicable.
    Mr. Van Hollen. One of the provisions in this bill that 
this committee passed would give you some centralized sign-off 
authority to provide uniformity. Do you have any objection to 
that?
    Ms. Glynn. Honestly I am not sure if we are in the best 
position to make the decisions, but it may be a tempest in a 
teapot because these waivers for negotiating employment are 
extremely rare. And I know which ones, I know which waiver 
prompted this provision to be put into the bill. But honestly 
very few agencies issue waivers. It may have been a kind of 
unique situation. So while I am not sure that it is a necessary 
provision, I don't think that the workload for OGE would be 
that great because these waivers are hardly ever issued anyway.
    Mr. Van Hollen. If I could, Mr. Chairman, and again this is 
testimony that was given before the full committee at the time 
that we were considering these issues back in February from 
Public Citizen, who pointed out that at the Department of 
Health and Human Services in a period of time from January 2000 
to 2004 there were 37 requests for waivers, all 37 were 
granted. That is in one agency.
    And as you point out, there was one that was particularly 
controversial because Tom Scully, who at the time was the head 
of CMS, as you know, was given the authority by the then 
Secretary of the Department, Secretary Thompson, to negotiate 
an employment contract with a number of entities at the same 
time that had an interest in the prescription drug bill, the 
pharmaceutical bill before the Congress and before the 
administration. And at the same time he was the head of CMS 
which, as you know, is an agency with a direct interest as 
well.
    Ms. Glynn. Hmm-hmm.
    Mr. Van Hollen. It seems to me, and I don't know why, 
assuming you had the resources to do it, why it doesn't make 
sense to have one entity make decisions with respect to 
granting waivers so this is not done on a political basis, so 
it is done in a uniform manner, and that everybody knows what 
the rules are and everyone is playing by one set of rules.
    Ms. Glynn. I mean, the argument against having it come to 
OGE is that we are not really close to the facts. So using Mr. 
Scully as an example, we would have to kind of do a little mini 
investigation to figure out exactly what is he involved in, 
what are the hot issues in the Medicare program. Those are 
things we would not normally know.
    I am not saying we can't do it. I am not sure that it needs 
to come to us because of the rarity of these waivers to begin 
with. And in that particular case I have to say that I think 
the government, the executive branch as a whole, took very 
swift and decisive action in response to it. Our office put out 
a memo right after that explaining why we think these waivers 
are a bad idea and reminding agencies that they are supposed to 
consult with us on them, which they did not in that case by the 
way, as well as the White House put out a memo saying that for 
Presidential appointees any such waiver also had to be cleared 
through the White House Counsel's Office.
    Mr. Van Hollen. That is now administration policy and that 
could change. I thought you made a good argument about the need 
for the independence for OGE and not folding it into another 
agency, and so I find it a little bit contradictory to say, 
well, in cases of waivers it is OK if those are made within an 
agency when I think it probably would make sense from an ethics 
point of view to have an independent agency, such as yourself, 
make that review for the same reasons you said it was important 
to maintain the independence of the agency. Otherwise you have 
people within an agency making decisions about waivers for 
other individuals within that same agency and, looking at the 
data, and maybe all 37 cases were good but 37 out of 37, 
especially since Scully was one of them, everybody recognizes 
this was a case that should not have been granted. It seems to 
me an independent review on a centralized uniform basis makes 
sense.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you. I am going to have another round of 
questions here in a moment, but Ms. Eleanor Holmes Norton is 
here and would like to make an opening comment.
    Ms. Norton. I am sorry I wasn't here to hear your entire 
testimony. Just following my colleague's concern, I heard you, 
and I can understand what you are talking about, we are not--
the notion of independence for me is really not to have 
somebody do a--how would we say it in the law--a de novo 
review. It is much more like appellate, it is much more like 
fresh eyes to break it down.
    I am concerned about notification of somebody who can ask 
questions. They may not have the background, as you I think 
quite rightly say, to do the review because knowledge of the 
underlying issues are important here. And I am not sure I would 
want you to go through that so long as the staff knew the 
kind--and here one doesn't have to know a thing about the 
agency, not a thing, in order to ask questions that could rise, 
that could bring issues to the top, which might otherwise not 
be flagged. But that of course requires that every time there 
is a waiver there is a mandatory opportunity for your office to 
give that kind of fresh eyed look and that you are given the 
opportunity to raise those questions and that it is required of 
the agency to respond to those questions within a period of 
time before the waiver is granted.
    I am not certain whether that is in the legislation, I mean 
whether those steps are specifically included in the 
legislation, but, Mr. Chairman, that would be my concern. Could 
you indicate to me whether those are in the legislation or if 
you have any difficulty with any of that?
    Ms. Glynn. I think the point you made is very well taken 
about the benefit of our office being involved is that we can 
point out things that others haven't thought of. And in 
particular one of the things that we stress now on these waiver 
consultations is that we tell agencies what other agencies are 
doing. They are not uniform at all. Some agencies are very free 
with waivers. Others are not. And I am not talking about 
waivers for negotiating for employment. I am just talking about 
waivers generally.
    We try to not impose a sense of uniformity here, but we try 
to get agencies to understand the kinds of things that other 
agencies are taking into account so that they can sort of 
improve their thinking on the process.
    Now, if what you believe needs to be done is that after 
that whole consultation is done that we still need to be the 
issuing entity, as I say, for waivers for negotiating an 
employment, that wouldn't concern me terribly. I think it would 
be a little bit of a workload, but not so much that it would be 
debilitating because there aren't many of those waivers. If we 
were talking about waivers from the criminal conflict of 
interest law generally, then we would have a huge problem, 
because the criminal conflict of interest law is extremely 
broad and very prophylactic and waivers for stock holdings and 
things of that sort are issued by some agencies routinely and 
if we had to be sign-off authority on every single one of those 
we would be in trouble.
    Ms. Norton. I am also less concerned about the bureaucracy. 
I understand the piling on of regulations. I believe in, I 
believe that government should regulate things and I believe 
that we do a disservice if we just make it so hard to regulate 
and people say what the hell in the first place. I am really, I 
am looking for what concerns me, and frankly, the issuance is 
of less concern to me.
    And I don't speak for anyone but myself. What is of concern 
to me, though, is that the fresh eyes again speak in, I think, 
terms that I think everybody can understand, that the concerns 
that were raised, the questions were raised be written down 
somewhere, that the answers be written down somewhere. And here 
I am not talking about a transcript, and that we have a written 
understanding that these issues were ever raised.
    Now, if somebody wants to go ahead, after you have raised 
the flag, you know, at their own peril, I really wonder if 
they'd do that. Let me tell you what my overall concern is. My 
concern is less for straight out violations of the kind we 
seldom see. It's the extent to which we have lost our way on 
appearance. When you're a first year law student, you learn 
that violations of the law are rare, but lawyers are held to a 
higher standard. Government officials are held to a higher 
standard than whether or not you've done something crooked.
    Because you have the public trust in your hands, the 
standard is how does this appear. Because if it does not appear 
to be straight, then, of course, confidence in that, not only 
you, but in government, is lost. So for me, this is, an agency 
might well not see the appearances problem. The agency knows 
exactly what this person is going to be doing and they know 
good and well it doesn't involve any conflict, and that may be 
quite beside the point. When you raise issues, I take it that 
appearances are as important as violations.
    Ms. Glynn. Well, we've certainly raised the appearance 
question. I think that everyone commonly calls that the 
``Washington Post Test,'' that if it's something that you 
wouldn't want seen written in the paper about you the next day, 
then you better think twice about doing it. We actually have a 
rule that narrows that test quite a bit, and what we say is if 
a reasonable person with knowledge of the relevant facts would 
question your impartiality, then you shouldn't do it. We always 
raise those issues with people. We might say, legally you can 
do this, but do you really want to? Is this a good idea? So I 
think your point is well taken.
    Ms. Norton. I like your Washington Post rule. I think that 
somehow gets the point across. I thank you, Mr. Chairman.
    Mr. Porter. You know, I mentioned earlier about the GAO 
being involved over a period of time and a short window of 
time. But also, I am convinced that we must reauthorize it as 
soon as possible. And I certainly have an open mind as to the 
changes. It appears to me, from the short time I have had to 
look at this, that things are working quite well. And again, I 
applaud you for that.
    Under the assumption of the reauthorization, I would like 
to work closer in the reauthorization bill on the contract 
issue, which means there is a shorter window of time. I would 
like to work with you soon so we can and provide some language 
to at least start that process. I think it's critical.
    Ms. Glynn. Sir, I would beg you not to make the 
reauthorization go to 2009, because that is the first year 
after a Presidential election, and honestly, we're a madhouse 
that year.
    Mr. Porter. Well, we would like to help you and not hurt 
you, because by helping you, it helps the government, and helps 
our country. So I would like to work with you on those issues. 
Also, if there is anything we should or could be doing to help 
streamline the process, I know we have talked about maybe 
expanding your role within some of your suggestions, if there 
are certain areas. But also we would like to streamline, there 
are some processes that you think that we could do to help you 
do your job better. I think now is a good time for that also. 
Are there a few things that you would suggest?
    Ms. Glynn. We issued a report March 2005 with a long 
laundry list of recommendations for streamlining financial 
disclosure. It is a difficult issue because the financial 
disclosure law, of course, applies to all three branches of 
government, and then the question naturally comes up, should 
these streamlining measures apply to all three branches or only 
to the executive branch. The administration's position is that 
they should apply to all three branches, but our 
recommendations would significantly, we think, improve the 
information required to be reported by fewer categories and so 
on. That would be something we would be very focused on.
    We are also trying to work with the Department of the Army 
on developing an electronic financial disclosure system, both 
for our public forums and our confidential forums. They're the 
ones with the money, so they're the ones that can develop the 
system for the executive branch, and we are moving along quite 
well with them. They've got it as a pilot project right now 
within the Army, and they are expanding it to other parts of 
DOD. Those are the two areas that we have identified as 
needing, particularly in need of streamlining. The actual 
information required to be disclosed on financial disclosure, 
as well as the method of reporting it, electronic versus paper.
    Mr. Porter. I understand we have spent some time on the 
financial reporting, and I would like to spend a moment on the 
training the trainer and the ethics training. Is there 
consistency throughout the government, or does everyone do 
something a little bit different?
    Ms. Glynn. Everybody does something a little bit 
differently as far as format. Some people use on-line training 
have computers essentially. Some people like to use the video 
because it's cute and it's entertaining. Some people like only 
the stand-up presentation where you can answer questions 
directly from the audience at that time. So each agency does 
their training a little bit differently and actually, within 
agencies they vary it.
    But the content, of course, hopefully is going to all be 
the same because the rules are essentially all the same for all 
agencies. We feel that we can assist agencies by providing some 
sort of templates in training that they can use. Typically 
agencies though want to add on with examples of situations that 
might come up at that agency to make it seem more real to the 
employees hearing the training. So we focus more of our efforts 
on training the trainers and trying to get the right 
information to them so that when they develop their own 
training, they're delivering the right information.
    Mr. Porter. Your ethics training is not limited to just 
financial training, correct?
    Ms. Glynn. Oh, no, no, no, no. Gifts, misuse of position, 
financial interest post employment, any one of the areas that 
our laws and rules cover.
    Mr. Porter. Thank you. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Ms. Glynn, I know it pretty much hurts you to even think this 
way, but if you had an additional million dollars, I mean, you 
have a budget of $11 million, if you had an additional $1 
million, how would you use it? What would you do with it?
    Ms. Glynn. If it were up to me, I don't think the 
additional million would be enough to work out this electronic 
filing issue. And as I say, we are using, partnering with the 
Army to do that. So I would put it into training. I would use 
more money to get sort of higher quality training, more 
interesting on-line stuff. You know, today's employee 
population grew up on TV and video games and things of that 
type. And it's an ever increasing problem to keep people's 
attention. And so we need expert help in developing training 
that's cute and glitzy to get people's attention. That's where 
I would use the million dollars.
    Mr. Davis. You know, I was thinking pretty much along the 
same lines as I tried to think of what one could actually do 
with that amount of resources, so I would certainly be in 
agreement with you.
    The things that we mostly see, are many of them criminal in 
nature? Or are they really oversight kinds of things or 
sometimes the lack of understanding or a lack of recognition? I 
mean, is there much criminality, have you seen?
    Ms. Glynn. No. I would say the kinds of missteps that we 
see are overwhelmingly technical, first of all, and certainly 
not criminal, but more in that grayer ethics area. The vast 
majority of government employees are folks who want to do the 
best job that they can do and are devoted to upholding high 
ethical standards. And I am talking about people in the highest 
level to the lowest level in government. I am talking about 
political appointees, career appointees.
    Most people, the vast majority of people want to do the 
right thing, but some of our rules and laws are complicated and 
not all of them are entirely intuitive and they need a little 
help to understand what to do. So the mistakes we see are often 
merely technical mistakes, no venality at all.
    Mr. Davis of Illinois. You know, I am so pleased to 
actually hear that, because I think there is becoming such a 
high level of cynicism on the part of many people in the 
general public who continue to lose confidence in government 
overall, and just don't believe that government is moving in 
the direction of honesty of integrity, of fairness, of fair 
play, and there is this mythical feeling that underneath it 
all, there is the wheeling and the dealing and the 
manipulation, and so it really warms my heart to hear you say 
that it is not criminality or criminal intent that we often 
see, but it is, in fact, technical oversight, it is mistakes 
that people make or it is not knowing, and training certainly 
could go a long ways toward that. So I thank you very much for 
your appearance. And I thank you, Mr. Chairman.
    Mr. Porter. I think that Mr. Davis would do a good job with 
some of your training.
    Ms. Glynn. He would.
    Mr. Porter. Adding some glitz.
    Ms. Glynn. I think he's very dynamic.
    Mr. Porter. Actually, the words he said, I'd like to 
reiterate. We are very fortunate in the Federal Government to 
have some of the best, the brightest, most honest work force in 
the country, and it's really refreshing to hear what you've had 
to say. Congresswoman.
    Ms. Norton. No questions.
    Mr. Porter. Mr. Van Hollen.
    Mr. Van Hollen. Just to followup a little bit on the 
legislation we were talking about earlier. I just want to make 
it clear that the provisions that are in the bill with respect 
to providing OGE with the oversight responsibility on 
negotiations relates to the area where we're talking about, 
which is people negotiating outside employment. It does not 
apply to the other areas, which I agree that would be a huge 
workload. And we've already talked about the fact that you have 
fairly limited resources and we need to work on that.
    Let me ask you a question with regard to the disclosure of 
lobbying activities. We talked very briefly, referred to the 
provision in the bill on that. But under current law, as I 
understand it, if someone's lobbying, at least certain 
individuals in the executive branch on a certain level, they do 
file disclosure requirements, but they do that, I believe, with 
the House and the Senate; is that right?
    Ms. Glynn. That's right. Although I don't even want to talk 
about it because I am not an expert in that. I'm afraid I'll 
make a misstatement. We don't really get involved in lobbying 
disclosure at all, so I'm not even sure how often the reports 
have to be filed.
    Mr. Van Hollen. OK. Well one question that's been raised is 
No. 1, whether lobbyists really understand that, they have that 
responsibility, No. 1. No. 2, whether it makes better sense 
with respect to people who are lobbying the executive branch 
that they file that kind of information with your office. And I 
understand the resource limitations. I'm not asking you to 
accept a lot of work without, on the existing budget. But it 
just seems to me in terms of coordinating this information and 
making, you know, available to the public and encouraging more 
disclosure and more sunshine on activities, it might make sense 
to have that low lobbying disclosure requirement be filed in 
the executive branch instead of with Members of Congress.
    You said that you were, or I guess the OGE had made certain 
recommendations with respect to the legislation that was 
introduced. I thought you did. I wasn't clear. What group was 
it that made--you said you looked at these recommendations.
    Ms. Glynn. We looked at them, but we have not made--the 
administration has not made official recommendations, no.
    Mr. Van Hollen. OK. That's what I was going to ask you. I 
mean, the administration, for example, is not, let me just make 
sure I understand correctly, I don't want to mischaracterize 
your testimony. They are not opposed to a 2-year ban on 
people's future, people who are within the administration, on 
their ability to leave the administration and come back and 
lobby.
    Ms. Glynn. I cannot speak for the administration on that. 
As I say, our own view in OGE has been in the past that we 
don't particularly favor that, although personally, it doesn't, 
you know, it doesn't trouble me personally, Marilyn Glynn. But 
I can't speak for the administration on that. We have not 
submitted an official comment yet on that bill.
    Mr. Van Hollen. OK. OGE, is one of its responsibilities to 
review legislation and provide comment on it?
    Ms. Glynn. That's right.
    Mr. Van Hollen. In other words, will the Congress be 
receiving official comment from OGE?
    Ms. Glynn. That's up to OMB.
    Mr. Van Hollen. OK. That's their decision. All right. Well, 
I encourage you to look, I think it's an important piece of 
legislation, obviously, as with every piece of legislation, you 
know, changes can be made, and it's important for us to get 
your input on that. But I do think that, especially in the 
current climate, which I think we have seen the results of, I 
think a lobbying sort of culture that's gotten out of control, 
and the failure of Members of Congress and Congress to hold 
itself accountable, that your organization is critical.
    I think its independence is critical. And I think it needs 
to be strengthened in a number of ways, as do I think the 
oversight of Congress and its own oversight with respect to 
these also. I thank you, Mr. Chairman.
    Mr. Porter. Again, I appreciate your being here today Ms. 
Glynn. You have done a very good job answering our questions.
    Ms. Glynn. Thank you for asking me.
    Mr. Porter. Just in summary, we would like to work with you 
very soon on the reauthorization portion regarding the 
contractors, what you think we should do, maybe some 
streamlining to help you process and maybe additional 
technology, if necessary. And the training portion, if there's 
things that we can do, first, we will get Mr. Davis as part of 
your training film.
    Ms. Glynn. Yeah. To be on our team.
    Mr. Porter. But again, I think my colleague has said it 
well. You have a very important role, a critical role, and I 
believe that the independence is important. I would like to 
take a look at GAO perspective, any additional suggestions, but 
I would like to compliment you on work you have done and we are 
counting on you, because it is a very important part of the 
process.
    Ms. Glynn. Thank you. I appreciate your kind comments. 
Thank you very much.
    Mr. Porter. The meeting's adjourned. Thank you all.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Jean Schmidt and additional 
information submitted for the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T2968.003

[GRAPHIC] [TIFF OMITTED] T2968.004

[GRAPHIC] [TIFF OMITTED] T2968.013

[GRAPHIC] [TIFF OMITTED] T2968.014

[GRAPHIC] [TIFF OMITTED] T2968.015

[GRAPHIC] [TIFF OMITTED] T2968.016

[GRAPHIC] [TIFF OMITTED] T2968.017

[GRAPHIC] [TIFF OMITTED] T2968.018

[GRAPHIC] [TIFF OMITTED] T2968.019

[GRAPHIC] [TIFF OMITTED] T2968.020

[GRAPHIC] [TIFF OMITTED] T2968.021

[GRAPHIC] [TIFF OMITTED] T2968.022

[GRAPHIC] [TIFF OMITTED] T2968.023

[GRAPHIC] [TIFF OMITTED] T2968.024

[GRAPHIC] [TIFF OMITTED] T2968.025

[GRAPHIC] [TIFF OMITTED] T2968.026

[GRAPHIC] [TIFF OMITTED] T2968.027

[GRAPHIC] [TIFF OMITTED] T2968.028

[GRAPHIC] [TIFF OMITTED] T2968.029

[GRAPHIC] [TIFF OMITTED] T2968.030

[GRAPHIC] [TIFF OMITTED] T2968.031

[GRAPHIC] [TIFF OMITTED] T2968.032

[GRAPHIC] [TIFF OMITTED] T2968.033

[GRAPHIC] [TIFF OMITTED] T2968.034

[GRAPHIC] [TIFF OMITTED] T2968.035

[GRAPHIC] [TIFF OMITTED] T2968.036

[GRAPHIC] [TIFF OMITTED] T2968.037

[GRAPHIC] [TIFF OMITTED] T2968.038

[GRAPHIC] [TIFF OMITTED] T2968.039

                                 <all>

</pre></body></html>
